No.

IN THE SUPREME COURT OF THE UNITED STATES

DANIEL LENE LOPEZ
Petitioner,

v

UNITED STATES OF AMERICA
Respondent.

Motion for Leave to Proceed in Forma Pauperis

 

Pursuant to Rule 39 of the Rules of this Court, the Petitioner, Daniel Lene
Lopez, asks for leave to file the attached Petition for Writ of Certiorari, without
prepayment of costs and to proceed in forma pauperis.

The Petitioner was represented by counsel appointed pursuant to Title 18,
United States Code Section 3006(a) (the Criminal Justice Act) in the District

Court and on appeal to the Eighth Circuit Court of Appeals.
Respectfully submitted

/s/Joseph G. Bertogli
JOSEPH G. BERTOGLI
ICIS No.: AT0000797
300 Walnut, Suite 270
Des Moines, Iowa 50309
Telephone: 515/244-7820
Facsimile: 515/244-9125
ATTORNEY FOR PETITIONER
